                                        UNITED STATES
                           NUCLEAR REGULATORY COMMISSION
                                     WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                     System Review Report

                                                                   May 2, 2014

Mr. Michael A. Raponi
Inspector General
U.S. Government Printing Office
732 North Capitol Street, NW
Washington, DC 20401

We have reviewed the system of quality control for the audit organization of the Office of
the Inspector General (OIG), U.S. Government Printing Office (GPO), in effect for the
year ended September 30, 2013. 1 A system of quality control encompasses GPO
OIG's organizational structure and the policies adopted and procedures established to
provide it with reasonable assurance of conforming with Government Auditing
Standards. The elements of quality control are described in Government Auditing
Standards. The GPO OIG is responsible for designing a system of quality control and
complying with it to provide the GPO OIG with reasonable assurance of performing and
reporting in conformity with applicable professional standards in all material respects.
Our responsibility is to express an opinion on the design of the system of quality control
and the GPO OIG's compliance therewith based on our review.


Our review was conducted in accordance with Government Auditing Standards and
guidelines established by the Council of the Inspectors General on Integrity and
Efficiency (CIGIE). During our review, we contacted GPO OIG personnel and obtained
an understanding of the nature of the GPO OIG audit organization , and the design of
the GPO OIG's system of quality control sufficient to assess the risks implicit in its audit
function. Based on our assessments, we selected engagements and administrative
files to test for conformity with professional standards and compliance with the GPO
OIG's system of quality control. The engagements selected represented a reasonable
cross-section of the GPO OIG's audit organization, with emphasis on higher-risk
engagements. Prior to concluding the review, we reassessed the adequacy of the
scope of the peer review procedures and met with GPO OIG's management to discuss
the results of our review. We believe that the procedures we performed provide a
reasonable basis for our opinion.



1
We also examined two audit reports issued in Fiscal Year 2014 . Those audits were issued on
November 13, 2013, and December 5, 2013, respectively.
In performing our review, we obtained an understanding of the system of quality control
for the GPO OIG's audit organization. In addition, we tested compliance with the GPO
OIG's quality control policies and procedures to the extent we considered appropriate.
These tests covered the application of the GPO OIG's policies and procedures on
selected engagements. Our review was based on selected tests; therefore, it would not
necessarily detect all weaknesses in the system of quality control or all instances of
noncompliance with it.

There are inherent limitations in the effectiveness of any system of quality control, and
therefore noncompliance with the system of quality control may occur and not be
detected. Projection of any evaluation of a system of quality control to future periods is
subject to the risk that the system of quality control may become inadequate because of
changes in conditions, or because the degree of compliance with the policies or
procedures may deteriorate. Enclosure 1 to this report identifies the offices of the GPO
OIG that we visited and the engagements that we reviewed.

Views of Responsible Officials

Your office did not respond to our request for comments on the draft report. On
March 12, 2014, we provided a draft report for GPO OIG review and requested
comments by April 11 , 2014. Your office subsequently requested an extension to May
9, 2014. We granted an extension until April 25, 2014. To date, we have not received a
reply nor been provided information as to whether a response will be forthcoming.

We noted the following deficiencies during our review:

   1. Inadequate Supervisory Review and/or Documentation. This is a repeat finding
      (Management Letter Comment) from the previous Peer Review Report issued on
      March 25, 2011. All three performance audits we reviewed (13- 14 , 14-01 , and
      14-03) did not contain evidence of supervisory review for a substantial number of
      workpapers. Additionally, many workpapers for report 14-01 were indicated as
      being reviewed after the GPO OIG issued the report.

       GAS 6.53 requires that: Audit supetVisors or those designated to supetVise
       auditors must properly supetVise audit staff. GAS 6.83c states that: Auditors
       should document supetVisory review, before the audit report is issued, of the
       evidence that supports the findings, conclusions, and recommendations
       contained in the audit report.




                                            2
   GPO OIG's Policies and Procedures Handbook dated February 18, 2013,
   Chapter 5, Field Work states that: All workpapers supporting the report findings
   and recommendations need to be signed off before the report is issued. The
   audit cannot be finalized until all programs, summaries, procedure steps,
   attached workpapers, and exceptions are signed-off, and all coaching notes are
   closed.

   Recommendation

   The GPO OIG should consistently comply with GAS 6.53 and 6.83c and its own
   procedures by documenting supervisory review of the audit workpapers.
   Implementation should be closely monitored and reported in the annual quality
   assurance reviews.

2. Inadequate Audit Planning . Two of the three performance audits we reviewed
   (13-14 and 14-03) did not contain evidence of adequate audit planning.

   Specifically, these two audits lacked audit plans or programs to ensure the audit
   met objectives.

   GAS 6.06 requires that: Auditors must adequately plan and document the
   planning of the work necessary to address the audit objectives. GAS 6.51
   requires that: Auditors must prepare a written audit plan for each audit.

   GPO OIG's Policies and Procedures Handbook dated February 18, 2013 ,
   Chapter 4, Audit Planning states: Auditors must prepare a written audit plan for
   each audit. A written audit plan assists management and auditors to determine
   whether: the proposed audit objectives are likely to result in a useful report; the
   audit plan adequately addresses relevant risks; the proposed audit scope and
   methodology are adequate to address the audit objectives; available evidence is
   likely to be sufficient and appropriate for purposes of the audit; and there are
   sufficient staff, supervisors, and specialists with adequate collective professional
   competence and other resources available to perform the audit and to meet
   expected time frames for completing the work.

   Recommendation

   The GPO OIG should consistently comply with GAS 6.06, 6.51 and its own
   procedures by ensuring that each audit is adequately planned and having a
   written audit plan to guide the audit and meet objectives.




                                         3
3. Improper Use of Unmodified GAGAS Statement. All three performance audits
   we reviewed (13-14, 14-01, and 14-03) used the unmodified GAGAS compliance
   statement even though the audits did not fully comply with GAGAS. These audit
   reports neither acknowledged the lack of documentation for supervisory review or
   audit planning nor provided justification for any departures. Supervisory review
   and proper planning are fundamental aspects of any successful audit.

   GAS 2.24 states: Auditors should include one of the following types of GAGAS
   compliance statements in reports on GAGAS audits, as appropriate.

          a. Unmodified GAGAS compliance statement: Stating that the auditor
         performed the audit in accordance with GAGAS. Auditors should include
         an unmodified GAGAS compliance statement in the auditors' report when
         they have (1) followed unconditional and applicable presumptively
         mandatory GAGAS requirements, or (2) have followed unconditional
         requirements, and documented justification for any departures from
         applicable presumptively mandatory requirements and have achieved the
         objectives of those requirements through other means.

         b. Modified GAGAS compliance statement: Stating either that (1) the
         auditor performed the audit in accordance with GAGAS, except for specific
         applicable requirements that were not followed, or (2) because of the
         significance of the departure(s) from the requirements, the auditor was
         unable to and did not perform the audit in accordance with GAGAS.
         Situations when auditors use modified compliance statements also include
         scope limitations, such as restrictions on access to records, government
         officials, or other individuals needed to conduct the audit. When auditors
         use a modified GAGAS statement, they should disclose in the report the
         applicable requirement(s) not followed, the reasons for not following the
         requirement(s), and how not following the requirement(s) affected, or
         could have affected, the audit and the assurance provided.


   GPO OIG's Policies and Procedures Handbook dated February 18, 2013,
   Chapter 6, Audit Reporting states: When auditors do not comply with all
   applicable GAGAS requirements, they should include a modified GAGAS
   compliance statement in the audit report that indicates which standards were not
   followed or language that the auditor did not follow GAGAS.

   Recommendation

   The GPO OIG should consistently comply with GAS 2.24 and its own procedures
   by ensuring that each audit report uses the appropriate compliance statement as
   necessary.
                                       4
In our opinion, except for the deficiencies described above, the system of quality
control for the audit organization of GPO OIG in effect for the year ended
September 30, 2013, has been suitably designed and complied with to provide
the GPO OIG with reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects.
Federal audit organizations can receive a rating of pass, pass with deficiencies,
or fail. GPO OIG has received a peer review rating of pass with deficiencies. As
is customary, we have issued a letter dated May 2, 2014, that sets forth findings
that were not considered to be of sufficient significance to affect our opinion
expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in
accordance with guidance established by the CIGIE related to the GPO OIG's
monitoring of engagements performed by Independent Public Accountants (IPA)
under contract where the IPA served as the principal auditor. It should be noted
that monitoring of engagements performed by IPAs is not an audit and therefore
is not subject to the requirements of Government Auditing Standards. The
purpose of our limited procedures was to determine whether GPO OIG had
controls to ensure IPAs performed contracted work in accordance with
professional standards. However, our objective was not to express an opinion
and accordingly, we do not express an opinion , on GPO OIG's monitoring of
work performed by IPAs.

We appreciate the cooperation extended by you and your staff during the review.




                                  Hubert T. Bell
                                  Inspector General




Enclosure




                                     5
                                                                                      Enclosure 1



SCOPE AND METHODOLOGY

We tested compliance with the GPO OIG audit organization's system of quality control
to the extent we considered appropriate. These tests included a review of 1 of 7 audit
reports issued during the period October 1, 2012, through September 30, 2013, and
semiannual reporting periods corresponding to that timeframe. As stated in the footnote
below, we reviewed two audit reports issued in November 2013? We also reviewed the
internal quality control reviews performed by the GPO OIG.

In addition, we reviewed the GPO OIG's monitoring of engagements performed by IPAs
where the IPA served as the principal auditor during the period October 1, 2012,
through September 30, 3013. During the period, GPO OIG contracted for the audit of
its agency's Fiscal Year 2012 financial statements. GPO OIG also contracted for
certain other engagements that were to be performed in accordance with Government
Auditing Standards.

We performed this review at GPO OIG offices in Washington, DC.

Reviewed Engagements Performed by the GPO OIG

Report No.                     Report Date            Report Title
13-14                          08/07/2013             Financial Accounting: Volatility of the
                                                      Federal Employees' Compensation Act
                                                      Actuarial Liability Estimate

14-01                          11/13/2013              GPO Paint Branch
                                                       Safeguarding Paint and Supplies
                                                       Inventory

14-03                          12/05/2013              GPO Strengthened Management
                                                       Oversight of the Congressional
                                                       Billing Process But
                                                       Additional Steps Needed




2 GPO's OIG issued a revised Policies and Procedures Handbook in 2013. Section 1.9 states "The 2013
revision of the Office of Audits and Inspections Policies and Procedures Handbook is effective for
performance audits, financial audits, and attestation engagements beginning on or after February 18,
2013." To provide for the most efficient and effective review, NRC OIG selected only those audits that
were initiated on or after February 18, 2013. Only one audit from the period October 1, 2012 to
September 20, 2013, met that criteria. As a result, NRC OIG , with GPO OIG's concurrence, selected two
additional audits from FY 2014.
                                                  6
Reviewed Monitoring Files of GPO OIG for Contracted Engagements

Report No.             Report Date       Report Title
13-09                  02/28/2013        U.S. Government Printing Office
                                         FY 2012 Independent Auditor's Report




                                     7
